BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies of
the foregoing Brief Amicus Curiae of Free Speech
Coalition, Free Speech Defense and Education Fund,
Gun Owners Foundation, Gun Owners ofAmerica, The
National Right to Work Committee, U.S.
Constitutional Rights Legal Defense Fund, Patriotic
Veterans, Public Advocate of the United States,
Downsize DC Foundation, DownsizeDC.org,
Conservative Legal Defense and Education Fund,
American Target Advertising, and Restoring Liberty
Action Committee in Support of Petitioner in 19-767,
National Association for Gun Rights, Inc. v. Jeff
Mangan, in his capacity as Montana's Commissioner
of Political Practices, et al., were sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Two Day Service and e-mail to the following
parties listed below, this 15th day of January, 2020:
David Alan Warrington
Kutak Rock LLP
1625 Eye Street
Suite 800
Washington, DC 20006
(202) 828-2437
da vid.warrington@kutakrock.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Matthew T. Cochenour
Office of the Montana Attorney General
215 North Sanders Street
Helena, MT 59601
(406) 444-2026
mcochenour2@m t. gov
Counsel for Respondents
William J. Olson*
Herbert W. Titus
Jeremiah L. Morgan
Robert J. Olson
William J. Olson, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Counsel for Amici Curiae
*Counsel of Record

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 15, 2020.

Donna J. Wolf
Becker Gallagher Legal Pu lishing Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

,JULIE ANNE f(ERSHNEg
Notary Public, State of Ohio
My Cvrr1missio11 Expires
February 21, 2023

